TN

@OCKLE

Legal Briefs

Est. 1923

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

No. 19-1134

LONNY E. BALEY, ET AL.,
Petitioners,
v.
UNITED STATES, PACIFIC COAST

FEDERATION OF FISHERMEN’S ASSOCIATION,

Respondents.

CERTIFICATE OF COMPLIANCE

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF OREGON
WATER RESOURCES CONGRESS, NATIONAL WATER RESOURCES ASSOCIATION,
FAMILY FARM ALLIANCE, IDAHO WATER USERS ASSOCIATION, WASHINGTON STATE
WATER RESOURCES ASSOCIATION, IRRIGATION & ELECTRICAL DISTRICTS
ASSOCIATION OF ARIZONA, AGRIBUSINESS & WATER COUNCIL OF ARIZONA, AND
YUMA COUNTY AGRICULTURE WATER COALITION, ET AL. AS AMICI CURIAE IN
SUPPORT OF PETITIONERS in the above entitled case complies with the typeface requirement

of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text

and 10 point for the footnotes, and this brief contains 5971 words, excluding the parts that are

exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 14th day of April, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL MOTARY-State of Mebraska 9
RENEE J. GOSS / (ene. Q. Loos Onda bh, Gh
My Comm. Exp. September 5, 2023
" Notary Public

Affiant

 
